No. 20-6436
IN THE SUPREME COURT OF THE UNITED STATES
Daniel Lovato,
Petitioner,
v.
United States of America,
Respondent
CERTIFICATE OF SERVICE
I, Shira Kieval, an attorney appointed to represent the Petitioner under the
Criminal Justice Act, hereby certify that, on March 8, 2021, I served the Reply in
Support of Certiorari and on all parties required to be served under Supreme Court
Rule 29.4(a). I completed service by causing a copy of the documents to be enclosed in
an envelope and be delivered to Federal Express for delivery within 3 calendar days,
and by causing an electronic version of the documents to be transmitted via email to:

[See attached service list.]
/s Shira Kieval
Shira Kieval
Assistant Federal Public Defender
Counsel of Record for Petitioner

Service List
Reply in Support of Certiorari
United States v. Lovato, No. 20-6436
Elizabeth B. Prelogar
Acting Solicitor General
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov
Counsel for Respondent
Shana-Tara O’Toole
Due Process Institute
700 Pennsylvania Ave. SE, #560
Washington, DC 20003
Shana@idueprocess.org
Counsel for Amicus Curiae Due Process Institute
Ilya Shapiro
Cato Institute
1000 Mass. Ave., NW
Washington, DC 20001
ishapiro@cato.org
Counsel for Amicus Curiae Cato Institute

2

